             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR

                                                                                     July 23, 2013

Memorandum

To:           Eric Eisenstein
              Division Chi.ef, Internal Contro l and Audit Fo llow-up
              Office of Financial Manageme~                               -:----a
From:         Michael P. Colombo           d._ ~~ c~
              Western Regional Man~r Audits, Inspections, and Evaluations

Subject:      Verification Review of Recommendation for the Management Advisory Report,
              " Bureau ofindian Affairs' Contract with the National Native American Law
              Enforcement Association Contract No. CBK00090002" (WR-EV -BIA-00 15-
              2009, February 2010)
              Report No. WR-VS-BIA-0021-2013

        The U.S . Department ofthe Interior, Office of Inspector General (OIG) has completed a
verification review of the recommendation presented in the subject management advisory report.
The objective of the verification was to determine whether the Bureau ofindian Affairs (B IA)
implemented the recommendation as reported to the Office of Financial Management (PFM),
Office of Policy, Management and Budget. PFM reported to OIG when BIA had addressed and
provided supporting documentation for the recommendation in the subject report. Based on our
review, we determined that the recommendation is resolved and impl emented.

Background

       Our February 2010 management advisory report, "Bureau of Indian Affairs' Contract
with the National Native American Law Enforcement Association Contract No. CBK00090002,"
contained one recommendation pertaining to the termination of a contract for law enforcement
recruitment services.

        ln its March 23, 2010 response, BIA agreed with our recommendation, and stated that it
terminated the contract for convenience effective February 25, 20 10. Because we received the
response after the due date, however, we considered the recommendation unresolved and
unimplemented. We subsequently forwarded BIA' s response to PFM. On April 12, 2010, PFM
notified us that the recommendation was closed.

Scope and Methodology

      The scope of this review was limited to determining whether BIA took action to
implement our recommendation. To accomplish our objective, we reviewed the supporting
documentation that we obtained during a subsequent OIG evaluation.



                        Office of Audits, Inspections, and Evaluatio ns I Sacramento, CA
        We did not perform any site visits or conduct fieldwork to determine whether BIA had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       We determined that the recommendation is resolved and implemented.

       Recommendation: The Assistant Secretary for Indian Affairs direct BIA to immediately
       terminate its contract with National Native American Law Enforcement Association.

        In its response to our report, BIA stated that it had terminated the contract for
convenience on February 25, 2010. We obtained documents related to the contract termination
and settlement in a subsequent OIG evaluation titled "Bureau of Indian Affairs' Law
Enforcement Recruitment Services Contract with the National Native American Law
Enforcement Association" (Report No. WR-EV -BIA-0005-2011). Based on our review of
documents, we conclude that the recommendation is resolved and implemented.

Conclusion

       We informed BIA officials of the results of this review at a teleconference on June 25,
2013. BTA officials agreed with the results of our review.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    Kevin K. Washburn, Assistant Secretary for Indian Affairs
       Darren A. Cruzan, Director, Office of Justice Services
       Nancy Thomas, Liaison Officer, Office of Financial Management
       Michael Oliva, Liaison Officer, Assistant Secretary and Bureau of Indian Affairs




                                                 2
